Nos. 19-840 & 19-841

 

IN THE

Supreme Court of the United States

STATE OF CALIFORNIA, ET AL.,

Petitioners,
v.

STATE OF TEXAS, ET AL.,
Respondents.

UNITED STATES HOUSE OF REPRESENTATIVES,

Petitioner,
v.

STATE OF TEXAS, ET AL.,
Respondents.

On Petitions for Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

BRIEF OF THE ASSOCIATION OF AMERICAN
PHYSICIANS AND SURGEONS AS AMICUS
CURIAE IN OPPOSITION TO THE PETITIONS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

3,085 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 3, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
